                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

11   Case Number: A08030008
                                                                                    11         Page 1 of I



                     We reviewed an allegation that a proposal submitted to con contained a small amount of
             plagiarized text, and determined that the text in the proposal was duplicated fi-om multiple
             sources. The sources were cited near the locations of the duplicated sections in the project
             description, and the citations were given in the "References Cited" section of the submitted
             proposal, but none of the duplicated text appears within quotation marks. The subject accepts
             responsibility for the composition of these parts of the proposal. The PI explained that since he
             provided the citations, and leading text that identified the conclusions as those of the source
             document authors, he did not feel that the duplicated words needed to be included within
             quotation marks. A letter will be sent to the subject to encourage him to adopt more reasonable
             citation practices to avoid future allegations.

                        Accordingly, this case is closed.




I'
    NSF OIG Form 2 (1 1/02)
